DOCKET NO. ___________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019

JEREMIAH (“JENNA”) RODGERS,
Petitioner,
vs.
STATE OF FLORIDA
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
COMES NOW, the Petitioner, JEREMIAH (“JENNA”) RODGERS, by
and through undersigned counsel, and moves for leave of this Court to proceed in
forma pauperis in this proceeding. Petitioner has been found indigent by each state
court in which she has challenged this conviction and sentence and has been
permitted to proceed in forma pauperis before each of those courts: the First
District Court of Appeals of Florida and the Circuit Court of the First Judicial
Circuit in and for Santa Rosa County, Florida.

1

WHEREFORE, Petitioner moves the Court for leave to proceed in this action
in forma pauperis.
I HEREBY CERTIFY that a true copy of the foregoing motion has been
furnished by United States Mail, first-class postage prepaid, to all counsel of record
on July 6, 2020.

/s/. Linda McDermott
LINDA McDERMOTT
Assistant Federal Defender
Florida Bar No. 0102857
Office of the Federal Public Defender
Northern District of Florida
227 North Bronough St., Suite 4200
Tallahassee, Florida 32301
(850) 942-8818
linda_mcdermott@fd.org
Attorney for Petitioner

2

ATTACHMENT

